CERTIFICATE OF SERVICE
NO. 20-1672
Joan Carol Lipin
Petitioner,
v.
Wisehart Springs Inn, Inc., et al.
Respondents.
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Joan
Carol Lipin Reply Brief of Petitioner, by mailing one (1) true and correct copy of the same by
Fedex 2-Day, prepaid for delivery to the following addresses.
Mark Apelman
Mark Apelman, Boyle/Apelman P.C.
1660 Lincoln Street
Suite 1510
Denver, CO 80264
(303) 863-8900
mapelman@ba-lawyers.com
Counsel for Wisehart Springs Inn, Inc., Arthur
D. Wisehart, in his individual capacity, and in
his capacity as President and “Alter-Ego ” of
Wisehart Springs Inn, Inc., Ellen E. Wisehart,
Richard Hunter Kreycik, and Erin M.
Jameson, and Respondent Rebecca Geyer

Jeffrey L. Driscoll
Williams, Turner & Holmes, P.C.
744 Horizon Court
Suite 115
Grand Junction, CO 81506
(970) 242-6262
Counsel for Debbie Griffith, in her official capacity
as Delta County Assessor

Respondent Attorney, Pro Se
Mark Apelman
1660 Lincoln Street
Suite 1510
Denver, CO 80264
(303) 863-8900
mapelman@ba-lawyers.com
Respondent, Pro Se

Respondent Attorney, Pro Se
Rebecca W. Geyer
Rebecca W. Geyer & Associates, P.C.
11550 N. Meridian Street
Suite 200
Carmel, IN 46032
(317) 973-0237
rgey er@gey erlaw. com
Respondent, Pro Se

Lucas'DeDeus

August 10, 2021
SCP Tracking: Lipin-45 East 89th Street-Cover Tan

